THE CENTER FOR DEATH PENALTY LITIGATION
123 West Main Street • Suite 700 • Durham, NC 27701
Phone: 919-956-9545 • Fax: 919-956-9547 • E-mail: cdpl@cdpl.org

May 25, 2021
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543

Request for Extension of Time To File Brief in Opposition to Petition for Certiorari
State of North Carolina v. Norfolk Junior Best, No. 20-1608
Dear Clerk of Court:
In light of the current pandemic and other professional and personal
responsibilities, including local court appearances and deadlines, counsel for the
Respondent, Mr. Norfolk Junior Best, are writing to request a thirty-day extension of
time, to July 19, 2021, to file his Brief in Opposition to Petition for Writ of Certiorari
to the Supreme Court of North Carolina. The above-captioned case is a capital case
and a Brief in Opposition to Petition for Writ of Certiorari is required.
Counsel for Petitioner, Mr. Jonathan P. Babb, has been consulted and
indicated he has no objection to this request.
Sincerely,

/s/ Ivy A. Johnson
Ivy A. Johnson*Counsel of Record
Center for Death Penalty Litigation
123 W Main Street, Ste 700
Durham, NC 27701
(919) 956-9545
ijohnson@cdpl.org

/s/ Jay H. Ferguson
Jay H. Ferguson

Counsel for Respondent

THE CENTER FOR DEATH PENALTY LITIGATION
123 West Main Street • Suite 700 • Durham, NC 27701
Phone: 919-956-9545 • Fax: 919-956-9547 • E-mail: cdpl@cdpl.org
Thomas, Ferguson, & Beskind, LLP
119 E. Main Street
Durham, NC 27701
(919) 682-5648
ferguson@tfblawyers.com

